OIG Investigative Reports, Newark NJ December 09. 2010 - New Jersey City University Employee Pleads Guilty to Stealing, Laundering Over $500,000 from Student Government Organization
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney
District of New Jersey
FOR IMMEDIATE RELEASE
December 09, 2010
www.justice.gov/usao/nj
CONTACT: 	 Rebakah Carmichael
Office of Public Affairs
(973) 645-2888
NEW JERSEY CITY UNIVERSITY EMPLOYEE PLEADS GUILTY
TO STEALING, LAUNDERING OVER $500,000 FROM
STUDENT GOVERNMENT ORGANIZATION
NEWARK, N.J. – The suspended office manager for the New Jersey City University
("NJCU") Student Government Organization ("SGO"), pleaded guilty today to stealing over
$500,000 in federally-subsidized funds from the university and conspiring to launder the
proceeds of the theft, United States Attorney Paul J. Fishman announced.
Shaunette R. Moody, 48, of Jersey City, N.J., pleaded guilty to an Information charging
her with one count of money laundering conspiracy and one count of theft from an organization
receiving federal benefits. She entered her guilty plea before United States District Judge
William J. Martini in Newark federal court.
According to documents filed in the case and statements made during the guilty plea
proceeding:
Moody admitted that she agreed with others to steal funds from NJCU by writing
unauthorized checks drawn on the NJCU SGO bank account. In total, from January 4, 2007,
through July 21, 2010, she and her husband Alexander Moody, 51, also of Jersey City, stole
approximately 275 checks that were then fraudulently signed and made payable to themselves
and co-conspirators Arsenio Willey, Curtis Shearer, Kimberly Jackson, and others.
Shaunette Moody acknowledged that they agreed to negotiate the stolen checks, for
approximately $502,117, in a manner intended to disguise the nature, source, and control of the
stolen funds. She and her co-conspirators used the stolen money to purchase goods and services
for their own benefit, including entertainment and gambling in Atlantic City, N.J.
The Moodys were originally charged by Indictment on September 2, 2010. Willey,
Shearer, and Jackson were charged by Complaint with conspiracy to steal federally-subsidized
funds on September 7, 2010. The charges against Alexander Moody, Willey, Shearer, and
Jackson remain pending.
The money laundering conspiracy charge to which Shaunette Moody pleaded guilty
carries a maximum potential penalty of 20 years in prison and a fine of twice the value of the
laundered property. The theft charge to which the she pleaded guilty carries a maximum of 10
years in prison and a fine of twice the value of the gain from the offense. In addition, she agreed
to pay restitution to NJCU, and to resign from her position and never seek future employment
with NJCU. Sentencing for the defendant is scheduled for March 24, 2011.
U.S. Attorney Fishman credited special agents of IRS – Criminal Investigation, under the
direction of Special Agent in Charge Victor W. Lessoff, and special agents of the U.S.
Department of Education, Office of the Inspector General, under the direction of Special Agent
in Charge Brian Hickey, for the investigation leading to today's guilty plea.
The government is represented by Assistant U.S. Attorney Randall H. Cook of the United
States Attorney's Office Criminal Division in Newark.
The charges and allegations made in the Indictment against Alexander Moody and the
Complaint against Willey, Shearer, and Jackson are merely accusations, and the defendants are
considered innocent unless and until proven guilty.
10-364
###
Defense counsel:
Shaunette R. Moody: Alan D. Bowman, Esq., Newark, N.J.
Top
Printable view
Last Modified: 12/14/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov